Oversight Review              March 16, 2011


External Quality Control Review of the Defense
     Logistics Agency Audit Organization

          Report No. D-2011-6-005
  Additional Copies

  To obtain additional copies of the final report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-8982.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-8982. Ideas and requests can also be mailed to:


                          Office of the Assistant Inspector General
                               for Audit Policy and Oversight
                          Department of Defense Inspector General
                            400 Army Navy Drive (Room 833)
                                 Arlington, VA 22202-4704




Acronyms


AICPA                  American Institute of Certified Public Accountants
DLA                    Defense Logistics Agency
GAGAS                  Generally Accepted Government Auditing Standards
OMB                    Office of Management and Budget
QCAP                   Audit Quality Control and Assurance Policy
                                   INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                              ARLINGTON, VIRG INIA 22202-4704

                                                                          MAR 1 6 2011

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: External Quality Control Review of the Defense Logistics Agency Audit
         Organization (Report No. D-2011-6-005)

       We are providing this report for your information and use . We have reviewed the
system of quality control for the audit organization of the Defense Logistics Agency
(DLA) in effect for the period ended May 31 , 2010. A system of quality control for
DLA's audit organization encompasses the audit organization's leadership, emphasis on
performing high quality work, and policies and procedures established to provide
reasonable assurance of compliance with generally accepted government auditing
standards (GAGAS). DLA is responsible for designing a system of quality control and
complying with its system to provide DLA with reasonable assurance that its audits are
performed and reported on in accordance with GAGAS in all material respects .

       Our review was conducted in accordance with GAGAS and guidelines established
by the Council of the Inspectors General on Integrity and Efficiency. We tested the DLA
audit organization's system of quality control to the extent we considered appropriate.
GAGAS require that an audit organization performing audits or attestation engagements,
or both, in accordance with GAGAS have a suitably designed internal quality control
system in place and undergo an external quality control review at least once every three
years by reviewers independent of the audit organization being reviewed. An audit
organization's quality control policies and procedures should include and be consistent
with GAGAS requirements for quality control.

         Federal audit organizations can receive a rating of pass, pass with deficiencies , or
fail . In our opinion, the DLA audit organization' s system of quality control for audits
and attestation engagements was not designed in accordance with GAGAS. Further, the
internal quality control system was not operating effectively to provide reasonable
assurance that the DLA audit organization's personnel were following established
guidance, policies, procedures, and applicable auditing standards. Accordingly, as a
result of the significant deficiencies described in Appendix A, we are issuing a fail
opinion on the DLA audit organization's system of quality control used on audits and
attestation engagements for the review period ended May 31 , 2010.

       Appendix A contains matters that resulted in the fail opinion. In addition,
Appendix A contains comments, observations, and recommendations where the DLA
audit organization can improve its quality control program related to aUditing and
attestation engagement practices. Appendix B contains a summary of the results of our
interviews with DLA audit staff. Appendix C contains the scope and methodology of the
review. Appendix D provides the full text of management comments in response to the
draft report.

      We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Ms. Carolyn R. Davis at (703) 604-8877
(DSN 664-8877).




                               Randolph R. Stone, SES
                               Deputy Inspector General
                               for Policy and Oversight




                                           2
Appendix A. Comments, Observations, and
Recommendations
Defense Logistics Agency
The Defense Logistics Agency (DLA) is the Department of Defense’s largest logistics combat
support agency, providing worldwide logistics support in both peacetime and wartime to the
military services as well as several civilian agencies and foreign countries. DLA is
headquartered at Fort Belvoir in Northern Virginia and had nearly $41 billion in FY 2010
revenues. DLA employs about 27,000 civilian and military employees, supports nearly 1,900
weapon systems, and manages eight supply chains and nearly 5 million items. DLA operates in
48 states and 28 countries, and processes 116,000 requisitions and nearly 10,000 contract actions
a day. DLA supports humanitarian relief efforts within the United States and abroad, provides
logistics support to other federal agencies, and had FY 2010 foreign military sales of about
$1.6 billion, supporting 118 nations.

DLA Audit Organization
DLA has the DLA Accountability Office at Headquarters DLA; one audit office at the DLA
Logistics Information Service in Battle Creek, Michigan; and audit offices at each of the six
DLA Primary Level Field Activities. The DLA Accountability Office leverages audit and
investigative expertise to provide DLA leadership with timely facts to make informed decisions
for improving efficiency, accountability and warfighter support. The six DLA Primary Level
Field Activities with co-located audit offices are DLA Land and Maritime, Columbus, Ohio;
DLA Aviation, Richmond, Virginia; DLA Troop Support, Philadelphia, Pennsylvania;
DLA Energy, Fort Belvoir, Virginia; DLA Distribution, New Cumberland, Pennsylvania; and
DLA Disposition Services, Battle Creek, Michigan. DLA has a decentralized audit function,
each of the field office Audit Directors report directly to their local Commander/Deputy
Commander for day-to-day administrative and operational issues and not to the DLA
Accountability Office. Additional details on the DLA audit organization and the scope and
methodology for this review are contained at Appendix C.

Quality Control System Deficient
We identified significant deficiencies that existed in the DLA audit organization’s quality control
system. The system of quality control was not suitably designed or complied with to provide
reasonable assurance of performing and/or reporting in conformity with generally accepted
government auditing standards (GAGAS) in all material respects. Therefore, we are issuing a
fail opinion on their external quality control review.




                                                3
Significant deficiencies affecting our opinion on the system of quality control are:

       •   material deficiencies in the design of the audit quality control system including
           absence of official quality control policies and procedures, and lack of a formal audit
           quality assurance function;
       •   performance of nonaudit services, which resulted in an organizational impairment to
           independence; and
       •   failure to exercise sufficient professional judgment as evidenced by substantive
           noncompliances with GAGAS on audit assignments.

The DLA audit organization’s current quality control program for audits and attestation
engagements showed evidence of substantive noncompliances in six additional GAGAS areas:

       •   competence,
       •   planning,
       •   supervision,
       •   evidence,
       •   documentation, and
       •   reporting.

Further, current procedures for ensuring that all audit offices prepare and submit an annual audit
plan and maintaining an up-to-date listing of audit reports issued by the audit organization need
improvement. Implementing the recommendations identified in this report would assist DLA’s
efforts in improving their audit organization’s system of quality control thereby achieving
compliance with GAGAS requirements.




                                                 4
Significant Deficiencies in the Design and Operation of the
Audit Quality Control System
GAGAS 3.51 states that an audit organization’s system of quality control encompasses the audit
organization’s leadership, emphasis on performing high quality work, and the audit
organization’s policies and procedures designed to provide reasonable assurance of complying
with professional standards and applicable legal and regulatory requirements. We found that
DLA’s audit organization had significant deficiencies in its system of quality control.

The significant deficiencies in the design and operation of the DLA audit quality control system
included:

       •   consideration of DLA audit policy as non-binding guidance only and insufficiency of
           DLA guidance on attestation engagements and other standards areas detailed
           throughout the report,
       •   lack of a formal quality control and assurance program,
       •   creation of an organizational impairment to independence through the performance of
           nonaudit services and audit office reporting structure, and
       •   the lack of professional judgment evidenced by multiple GAGAS noncompliances
           within the eight DLA Headquarters and field audit offices.

These deficiencies as detailed below provided the basis for the opinion and our concern about the
inability of the DLA audit quality control system to provide reasonable assurance of compliance
with GAGAS.

Official Policy vs. Guidance
The DLA Accountability Office, Audit Division’s policies, to include the Enterprise Audit
Procedures and the Audit Quality Control and Assurance Policy (QCAP), are frequently
viewed as non-binding guidance by many audit office personnel. This conflict existed because
the DLA guidance was not subject to the agency’s official policy coordination procedures, to
include final approval by the Director, DLA. The Enterprise Audit Procedures and QCAP were
issued as interim updates to the DLA One Book Process Chapter, “Internal Audit Process,”
during August 2009. Audit Division management stated that the QCAP was developed to
prepare for the upcoming DoD Office of the Inspector General quality control review, and to
ensure that the agency had a similar quality control system throughout all DLA audit offices.
The QCAP transmittal memorandum, signed by the Director, DLA Accountability Office,
contains the following information:




                                                5
         The attached handbook is issued as an interim update to the Internal Audit One Book
         chapter. When the revised Internal Audit Process One Book chapter is ready for staffing
         with the Enterprise, the handbook will be formally staffed along with the chapter. In the
         interim, all auditors and audit staff should use these procedures as guidelines for new
         audits to achieve as much of an Enterprise approach as practical pending final policy
         issuance. Ongoing audits should be evaluated to determine which steps could be
         implemented now.

Failure to Complete Official Policy Coordination and Implementation

In May 2010, the DLA Accountability Office, Audit Division, issued three draft audit
Instructions, one of which pertained to the Internal Audit Process. The DLA One Book Process
Chapter, “Internal Audit Process,” will be canceled when the draft Internal Audit Process
Instruction is finalized. The Enterprise Audit Procedures and the QCAP will become
supplemental policy for the Internal Audit Process Instruction. In an effort to officially
coordinate the draft Instructions, Audit Division leadership provided the staff with opportunities
to submit feedback and propose changes to the draft documents. However, as of December
2010, the DLA Accountability Office, Audit Division, had not completed the official
coordination and implementation of the proposed Instructions. Coordination of these draft
policies was delayed due to continued disagreements with audit office personnel regarding the
contents of the draft Instructions. Similarly, as of December 2010, the DLA Accountability
Office, Audit Division, had not completed the official policy coordination or implementation of
the Enterprise Audit Procedures and QCAP.

Lack of Official Policy Resulting in Poor or Inconsistently Utilized
Quality Controls

As a result of the ongoing disagreements regarding official policies and guidance, some quality
assurance policies, including report indexing and independent referencing, were not followed
during the conduct of local audits completed after August 2009. Our review of audit projects
disclosed that seven of the eight audit offices were not following the quality assurance policies,
or in some instances, the policies were not consistently followed.

The QCAP and Enterprise Audit Procedures require that draft audit reports are referenced 1, and
the accuracy of the report content is verified by an independent reference reviewer. However,
we noted an audit project that did not contain references to report statements and the report
statements were not supported by audit documentation. For report No. 08-07, “Audit Report of
the Verification of Project 765’s Account Balance,” June 1, 2009, in response to deficiencies we
identified, the Deputy Commander, DLA Energy, responded and stated that the office has
implemented new independent reference review procedures with independent reference reviews
being conducted by other DLA audit offices.
1
  Referencing is a quality control process in which an experienced auditor who is independent of the audit checks
that statements of facts, figures, and dates are correctly reported, that the findings are adequately supported by the
evidence in the audit documentation, and that the conclusions and recommendations flow logically from the
evidence.


                                                           6
Another audit project did not include any evidence of the auditor’s analytical work in the project
files and we are recommending rescission of that report. For report number DAF-09-06,
“Validation Report of Corrective Actions Taken for Plan of Actions and Milestones 15, Contract
Modification to Match DESC Guidance,” November 2009, the DLA Energy audit office
complied with the QCAP requirement for an independent reference review; the review did not
ensure that the audit working papers adequately supported the report. The Deputy Commander,
DLA Energy, stated that DLA Energy’s Internal Review office requested the DLA
Accountability Office, Audit Division, to perform the quality review. The DLA Accountability
Office, Audit Division reviewer did not identify any deficiencies noted by the Department of
Defense, Office of Inspector General. In both instances, the independent reference reviewers did
not document any concerns about the lack of supporting documentation during their reviews.

The inconsistent application of the interim guidance has weakened the organization’s system
of quality control. Further, DLA audit organization management continues to rely on interim
guidance instead of official policies and procedures to maintain its system of quality control and
assurance. Ongoing disagreements regarding the contents of the draft Instructions have delayed
the DLA Accountability Office, Audit Division’s efforts to implement official audit policies and
procedures.

Attestation Guidance Needs Improvement
The audit organization’s current policies do not ensure that auditors performing attestation
engagements are knowledgeable in American Institute of Certified Public Accountants
(AICPA) general attestation standard related to criteria, attestation standards for field work
and reporting, and the related Statements on Standards for Attestation Engagements, as
required by GAGAS 3.45. The QCAP contains minimal guidance for conducting attestation
engagements. For example, Section 1100 of the QCAP states: “In this document, the term audit
includes performance audits and attestation engagements.” Audit Division management stated:

       Specific guidance for attestation engagements has not been issued by the DLA
       Accountability Office. According to paragraph 1100 of the Audit Quality Control and
       Assurance Policy, the term “audit” includes both audits and attestations. Therefore, the
       performance audit response covers both performance audits and the various categories of
       attestation engagements.

The QCAP guidance and management’s statement are not accurate. GAGAS Chapter 6 contains
guidance on general, field work, and reporting standards for attestation engagements. Chapter 6
also incorporates the AICPA general standards on criteria, the field work and reporting
standards, and the related Statements on Standards for Attestation Engagements. GAGAS
Chapters 7 and 8 discuss field work and reporting standards for performance audits.

Lack of a Formal Audit Quality Assurance Function
The DLA audit organization lacked an audit quality assurance function until December 2009,
when one quality assurance auditor position was established. However, since the


                                                  7
appointment, the quality assurance auditor has not conducted any reviews of DLA audit work
and therefore could not provide any evidence of quality assurance monitoring as required by
GAGAS 3.53f. GAGAS 3.53f states that the audit organization should perform monitoring
procedures that enable it to assess compliance with applicable professional standards and quality
control policies and procedures for GAGAS audits. Therefore, a significant deficiency in the
design of the audit quality control system exists, since a formal audit quality assurance function
was established and team members have not conducted any audit quality control monitoring.

In May 2010, the Quality Assurance and Audit Management Systems team was established.
However, the Quality Assurance and Audit Management Systems team has not initiated any
reviews of DLA audit work. The quality assurance auditor and team members conducted a peer
review of the Defense Finance and Accounting Service, which was completed on
August 5, 2010. In addition, the DLA Aviation Audit Office performed the peer review of the
Defense Commissary Agency, which was completed on August 3, 2010. The Office of the
Assistant Inspector General for Audit Policy and Oversight will perform a review of the work
related to the Defense Finance and Accounting Service and Defense Commissary Agency peer
reviews to satisfy ourselves of the sufficiency of the work and the support for the opinions.
Currently, the team is working on updating the TeamMate project template, updating the QCAP,
and is scheduled to provide training to DLA auditors on various audit subjects including
evidence, documentation, and planning.

In addition, the DLA audit organization is not complying with the annual reporting
requirement. GAGAS 3.54 contains the following requirement for quality control reviews:

       The audit organization should analyze and summarize the results of its monitoring
       procedures at least annually, with identification of any systemic issues needing
       improvement, along with recommendations for corrective action.

Further, although the QCAP contained procedures for obtaining a listing of reports to inspect for
compliance with GAGAS and DLA audit policies, the guidance did not contain any information
on the criteria for selecting a sample to gauge high risk areas. In addition, the QCAP does not
identify any risk factors for the quality assurance team to consider when performing their internal
quality assurance reviews. Lastly, the QCAP does not address the appropriate GAGAS
standards to apply, based on the type of service performed, when conducting internal quality
assurance reviews.

Independence
Changes to Audit Office’s Reporting Structures May Create an
Organizational Impairment to Independence
DLA senior management requested a change to the DLA Accountability Office, Audit Division’s
reporting structure during October 2009. At this time, the Director, Accountability Office, Audit
Division, reported to the DLA Vice Director for day-to-day administrative and operational
issues, and the overall execution of the office’s mission. However, when the Vice Director left


                                                  8
the position, the vacancy was not filled. As a result, the DLA Accountability Office, Audit
Division’s, reporting structure was realigned and the Director was required to report to the Chief
of Staff for day-to-day administrative and operational issues, and the overall execution of the
office’s mission. DLA senior management maintained that the new reporting structure would
ensure direct and open access to the Director, DLA, organizational independence, and meet
GAGAS. The realignment also required the Director, DLA Accountability Office, to ensure that
all audit and investigative results are provided to the Director, DLA, in a timely manner without
any undue influence from any DLA component.

In addition, DLA Aviation senior management proposed a similar change to the Internal Audit
Office’s reporting structure during July 2010. This proposed change would require the DLA
Aviation Audit Director to report to the DLA Aviation Chief of Staff for day-to-day
administrative and operational issues. DLA Aviation senior management maintains that the
Audit Director would still have direct access to the Commander and/or Deputy Commander
under the new reporting structure. The current reporting structure requires the DLA Aviation
Audit Director to report directly to the Commander and/or the Deputy Commander for
administrative and operational issues.

Changes to Reporting Structure in Conflict with GAGAS
Organizational Independence Requirements

These changes to the reporting structure would create an organizational impairment to
independence. Specifically, GAGAS 3.16 outlines five specific criteria that must be met for a
government internal audit function to be presumed free from organizational impairments to
independence. The criteria includes that the internal audit function:

       •   should be accountable to the head or deputy head of the government entity or those
           charged with governance;
       •   should report the audit results to both the head or deputy head of the government
           entity and to those charged with governance;
       •   should be located organizationally outside the staff or line-management function of
           the unit under audit;
       •   should have access to those charged with governance of the organization; and
       •   should be sufficiently removed from political pressures to conduct audits and report
           findings, opinions, and conclusions objectively without the fear of political reprisal.

The changes to the current reporting structure could negatively affect the DLA Accountability
Office, Audit Division, and DLA Aviation, Audit Offices’ compliance with the GAGAS 3.16
criteria that the head of the audit organization be accountable to the head or deputy head of the
government entity or those charged with governance.

It is important for a government internal audit function to be presumed free from organizational
impairments to independence in order to ensure that its opinions, findings, conclusions,
judgments, and recommendations are viewed as impartial by those charged with governance,


                                                 9
audit clients, and objective third parties. Further, a government internal audit function’s
reporting structure should not create the appearance of an organizational impairment to
independence.

Agreement and Disagreement with GAGAS Required Reporting
Structure for Internal Audit

The Director, DLA, agreed with our recommendation to require the Director, DLA
Accountability Office, to report directly to him for operational and administrative issues. In
response to a similar memorandum, the Commander, DLA Aviation, stated that the Chief of the
Internal Audit Division is accountable and has direct access to the Commander and Deputy
Commander at all times for any concerns. Further, the Internal Audit Division is located outside
the line-management function of the units under audit, and is sufficiently removed from political
pressures to conduct audits and report findings, opinions, and conclusions objectively without
fear of political reprisal.

We do not agree with the Commander, DLA Aviation’s, response to our recommendation. The
proposed changes to the reporting structure creates an organizational impairment to the audit
offices’ independence and also prohibits compliance with GAGAS 3.16 requirements. Further,
we recommend that any DLA audit office that does not report directly to their local
Commander and/or Deputy Commander immediately realign their reporting structures to
ensure organizational independence in both fact and appearance.

Performance of Nonaudit Services Created an Organizational
Impairment to Independence
Two of the seventeen engagements we selected were reported by DLA as audits when in fact
they were nonaudit services that impaired the DLA audit organization’s independence. GAGAS
3.22 discusses two overarching principles to apply to auditor independence when assessing the
impact of performing a nonaudit service - that auditors must not perform management functions
or audit their own work. The DLA One Book Process Chapter “Internal Audit Process,”
November 8, 2007, also states that staff may not perform management operating functions or
audit their own work. In addition, the DLA Accountability Office, Audit Division, QCAP,
August 12, 2009, contains similar guidance.

Of the seventeen engagements, we selected two engagements pertaining to the Office of
Management and Budget (OMB) Circular A-123, Appendix A, internal control testing to
determine the effectiveness of the applicable GAGAS. Auditors from the DLA Accountability
Office, Audit Division, and DLA Distribution audit offices conducted internal control testing on
the following engagements:

       •   Internal Control Testing Related to the Hire to Retire Business Cycle as Required by
           Office of Management and Budget Circular A-123, Appendix A, report number
           DAF-09-17; and


                                                10
           •    Internal Control Testing Related to Non Energy Inventory Quantity as Required by
                Office of Management and Budget Circular A-123 Appendix A, report number
                DDC-08-03.

Management Responsibility to Monitor Internal Control

OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004,
which implements the Federal Manager’s Financial Integrity Act of 1982, as codified in 31
U.S.C. 3512, states that management is responsible for establishing and maintaining internal
control, and that management has the responsibility to monitor internal control. OMB Circular
A-123 requires that management perform monitoring activities that include direct testing of
controls as part of their assessment process. Auditors from the DLA Accountability Office,
Audit Division, and DLA Distribution audit offices performed the OMB Circular A-123,
Appendix A, internal control testing. Further, the scope, sample sizes, testing approach, and the
evaluation procedures were directed by DLA operations management, not by the auditors.

GAGAS 3.29j classifies this type of work as a nonaudit service that would impair the audit office
independence with regards to future audits. Since the DLA Accountability Office, Audit
Division, and DLA Distribution audit offices also perform operational audits of depot processes,
the auditors would be reviewing controls they previously tested for DLA operations management
when conducting these types of reviews; thereby potentially auditing their own work and
performing a management function which breaches both overarching principles. Consequently,
the DLA Accountability Office, Audit Division, and the DLA Distribution audit offices’
organizational independence was impaired because they performed the OMB Circular A-123,
Appendix A, internal control testing. Specifically, during the “Defense Distribution Depot San
Joaquin (DDJC) Distribution Process Review,” report number DAO 09-07 2, the lead auditor on
the operational audit also led the OMB Circular A-123, Appendix A, internal control testing
review.

On October 29, 2010, we issued a Notice of Concern to alert DLA management of the
organizational impairment to independence. The Notice of Concern recommended that the
Director, DLA, mandate that the DLA Accountability Office, Audit Division, and the DLA audit
offices discontinue performing the OMB Circular A-123, Appendix A, internal control testing.
On December 2, 2010, the Director, DLA Accountability Office, issued a memorandum to all
DLA audit offices stating that all nonaudit services related to OMB Circular A-123,
Appendix A, work should immediately cease.




2
    This report was not included in the sample of 17 reports that we reviewed.


                                                           11
Professional Judgment
Failure to Exercise Sufficient Professional Judgment
We determined that the DLA audit organization did not exercise professional judgment due to
the vast array of noncompliances found in the majority of auditing standards areas including, but
not limited to, independence, use and application of GAGAS, planning, supervision, evidence,
documentation, reporting and quality control. Specific examples of the audit organization’s lack
of professional judgment are included in the table below and discussed in detail throughout this
report.




                                               12
GAGAS       Narrative Citation                      Details of Deficiencies
3.31    Professional judgment        In reviewing the eight DLA audit offices
        standard requires that       including the Headquarters office, we found
        auditors use professional    deficiencies in planning at six of the eight offices.
        judgment in planning and     At DLA Headquarters, Disposition Services,
        performing audits and        Energy, Aviation, and Land and Maritime audit
        attestation engagements,     offices, we found that audit and fraud risk
        and in reporting the         assessments were not completed. Additionally, at
        results.                     DLA Energy, the audit program did not reflect
                                     changes in audit direction, the criteria were not
                                     identified during audit planning, the audit
                                     program did not contain adequate sample
                                     selection information, and the audit plan did not
                                     adequately address relevant risks. We also found
                                     significant reporting deficiencies in four of eight
                                     offices including one egregious example that
                                     necessitated our recommending rescission of the
                                     report.
3.32    Professional judgment        At the DLA Energy audit office, we found no
        includes exercising          “critical assessment of evidence” for one report
        reasonable care and          reviewed. For the Plan of Actions and
        professional skepticism,     Milestones 15 report, the working papers
        which is an attitude that    described analytical work completed; however,
        includes a questioning       the project file did not contain evidence to show
        mind and a critical          that the work described was completed.
        assessment of evidence.
3.33    Professional judgment        We found in the DLA Disposition Services
        and competence are           Vulnerability Assessment audit that the staff and
        interrelated because         supervisor lacked training and experience in
        judgments made are           performing and reporting on attestation
        dependent upon the           engagements.
        auditors' competence.
3.34    In addition to personnel     For the DLA Headquarters Nuclear Weapons
        directly involved in the     audit, the auditors did not assess the professional
        audit, professional          qualifications of the equipment specialists or
        judgment may involve         document the specialists’ findings and
        collaboration with other     conclusions.
        stakeholders, outside
        experts, and management
        in the audit organization.




                                             13
GAGAS          Narrative Citation                     Details of Deficiencies
3.35       Using professional           We found quality control deficiencies at seven of
           judgment in all aspects of   eight audit offices. Examples of significant
           carrying out auditors’       deficiencies in quality control include minimal
           professional                 and non-substantive independent reference
           responsibilities includes    review comments rendering the quality control
           among other things,          procedure ineffective; missing references not
           maintaining appropriate      questioned; independent reference review not
           quality control over the     disclosing that the working papers did not
           assignment process as        adequately support the report; and reference
           essential to performing      review completed but not documented.
           and reporting on an audit.
3.38       Auditors are required to     GAGAS 3.38 requirements are not specifically
           document significant         mentioned or discussed in the current DLA policy
           decisions affecting the      or guidance. The absence of policies and
           audit objectives, scope,     procedures regarding the documentation of
           and methodology;             auditor decisions resulting from professional
           findings; conclusions; and   judgment negatively impacted the projects
           recommendations              included in our review. For example, at several
           resulting from               audit offices there was a consistent absence of
           professional judgment.       documentation of discussions with supervisors
                                        and auditees regarding decisions that were
                                        material to the overall execution of the work in
                                        the project files. For two projects reviewed, the
                                        audit plans did not contain information on the
                                        sample size or sample methodology. In addition,
                                        another project’s audit plan was not updated to
                                        document a significant increase to the original
                                        audit sample size, which was based on the
                                        auditor’s professional judgment.

Deficiencies in multiple standards areas, which evidences a lack of professional judgment, were
reflected at all DLA audit offices visited from a high of nine standards areas at DLA Disposition
Services to a low of two standards areas at DLA Information Services. DLA Headquarters audit
office was deficient in seven standards areas; DLA Energy in seven standards areas; DLA
Aviation, and DLA Troop Support in five standards areas; DLA Distribution in four standards
areas; and DLA Land and Maritime in three standards areas. The significant deficiencies in the
quality control system design, independence, and professional judgment coupled with the
deficiencies in multiple other GAGAS standards areas serve as the basis for the fail opinion. We
have therefore concluded that the system of quality control for the DLA audit organization in
effect for the period ended May 31, 2010, was not suitably designed and complied with to
provide reasonable assurance of performing and/or reporting audits and attestation engagements
in compliance with GAGAS in all material respects.




                                               14
Competence
Collective Competence Questionable Due to Lack of Professional
Judgment Evidenced by Significant GAGAS Noncompliances. GAGAS
requires that the staff assigned to perform the audit or attestation engagement must collectively
possess adequate professional competence for the tasks required. GAGAS further emphasizes
that Competence enables an auditor to make sound professional judgments. The multiple
noncompliances with GAGAS bring into question the collective competence within the DLA
audit organization and the ability of their auditors to make sound professional judgments. We
found several examples of lack of sound professional judgment including:

       •   Audit planning was deficient at six of eight audit offices and auditors in five of eight
           audit offices did not perform audit or fraud risk assessments.
       •   Two offices including the Headquarters DLA audit office were performing OMB
           Circular A-123 internal control testing, which breaches the GAGAS independence
           overarching principles of not reviewing your own work or performing management
           functions.
       •   Two audit offices including the Headquarters DLA audit office lacked knowledge of
           standards for planning, performing and reporting on attestation engagements.
       •   Poor design of audit methodology including sampling selection deficiencies were
           found at two of eight offices.
       •   At one audit office, working papers were deemed substandard – they described the
           analytical work completed, but the project file did not contain evidence showing the
           work described was completed. Additionally, the auditor had only two years of audit
           experience and very limited supervision.
       •   Quality supervision was lacking in at least five of eight audit offices and
           documentation of audit work performed was poor at five of eight audit offices.
       •   Quality controls when used were poorly executed, consequently diminishing the
           effectiveness of the quality control procedures.

GAGAS Knowledge Prior to Performing Audits or Attestation
Engagements

The DLA Accountability Office, Audit Division, and the DLA Disposition Services audit
offices did not have a clear understanding of what constituted an audit or attestation
engagement. GAGAS paragraph 3.40 states that auditors assigned to perform an audit or
attestation engagement must collectively possess adequate professional competence for the tasks
required. While reviewing an audit, we learned that fieldwork was conducted as a performance
audit; however, the GAGAS statement in the report indicated that the work was performed in
accordance with attestation standards. Audit staff and supervisors lacked training and
experience in performing and reporting on attestation engagements. Further, the auditors and
supervisors did not have sufficient understanding of GAGAS Chapter 6, General, Field Work,
and Reporting Standards for Attestation Engagements and the AICPA Statements of Standards
for Attestation Engagements. Audit management at the DLA Accountability Office, Audit


                                                15
Division, and the DLA Disposition Services audit offices supervised a Vulnerability Assessment
audit as a performance audit, but reported that the audit was conducted as an attestation
engagement. The two audit office managers agreed that the Vulnerability Assessment audit was
misclassified and the report cited an incorrect GAGAS standard.

Use of the Work of External Specialists

GAGAS paragraph 3.49 states that auditors who use the work of external specialists should
assess the professional qualifications of these specialists and document their findings and
conclusions. During the review of an audit, we noted noncompliance with this GAGAS
standard. Specifically, the auditors did not assess the professional qualifications of the
equipment specialists or document their findings and conclusions in the audit working papers.
The equipment specialists, Air Force personnel, were the key technical people that determined
the applicability of parts, subassemblies, and assemblies for transfer out of DLA possession and
into Air Force possession. As a result, the auditors depended on the work of external specialists
without evaluating their professional qualifications or reliability of their work.

Need for Review and Formalization of DLA Audit Organization
Process for Maintaining a Competent Workforce

Though only two auditors were found to not meet the GAGAS continuing professional education
requirements outlined in GAGAS 3.46 through 3.48, the multiple noncompliances with GAGAS
throughout the eight DLA audit offices indicates a need for review and formalization of the DLA
audit organization’s process for recruitment, hiring, continuous development, assignment, and
evaluation of staff to ensure maintenance of a competent workforce. Factors to consider in the
formalization of the process should include review of the size of the audit organization, its
structure, and the work being performed.

Planning
Deficiencies in Audit Planning
We found that six of eight audit offices lacked compliance with GAGAS requirements for audit
planning. Most deficiencies in audit planning were caused by a lack of documentation of audit
risk assessments and/or fraud risk assessments. GAGAS 7.07 states that in planning the audit,
auditors should assess the significance and audit risk, and apply these assessments in defining the
audit objectives, and the scope and methodology to address those objectives. Also, GAGAS 7.30
states that in planning the audit, auditors should assess risks of fraud that are significant within
the context of the audit objectives.

GAGAS 7.51 further states that a written audit plan provides an opportunity for the audit
organization management to supervise audit planning, and to determine whether the proposed
audit scope and methodology are adequate to address the audit objectives, and available evidence
is likely to be sufficient and appropriate for purposes of the audit.


                                                16
The table that follows details the deficiencies in planning at the various DLA audit offices in
addition to the non-performance of audit and fraud risk assessments.

  Location                           Listing of Planning Deficiencies
                            (In Addition to Lack of Risk Assessment Planning)
Headquarters •     Project file contained a report that identified risks for the same subject
                   area. However, a summary work paper was not prepared. As a result,
                   there was no evidence that prior audit risks were considered during
                   the audit planning. (Report No. DAO-09-10)
Disposition    •   Auditors did not design the methodology to provide reasonable
Services           assurance that the evidence was sufficient and appropriate to support
                   the auditor’s recommendations and conclusions. Specifically, the
                   audit program did not contain adequate information regarding the
                   sample selection methodology, and the program steps were not very
                   detailed or descriptive. (Report No. DRMS-09-03)
Energy         •   Auditors did not design the methodology to provide reasonable
                   assurance that the evidence was sufficient and appropriate.
                   Specifically, the audit program was not updated to reflect changes in
                   the direction of the audit. (Report No. 08-07)
               •   Criteria were not identified during audit planning. However, the final
                   report contained references to specific criteria. (Report No. 08-07)
               •   The audit program did not contain adequate information regarding the
                   sample selection methodology. The program steps were not detailed
                   or descriptive. The audit plan did not adequately address relevant
                   risks. (Report No. DAF-09-26)
Aviation       •   The audit plans did not adequately identify relevant risks.
               •   The audit plan was not updated to include significant changes made to
                   the plan during the audit. (Report No. IA-DSCR-CFOAP-2008-01)
Troop          •   The audit office indicated that two reports were terminated during the
Support            review period of FYs 2008-2010. However, the reasons for
                   termination were not documented in accordance with GAGAS.
                   Therefore, we could not determine if the reasons for terminating the
                   work was justified.
Land and       •   The audit program was not approved by the supervisor until the end of
Maritime           the audit. (Report No. DSCC-DI-09-49)




                                                17
Policies Lacking for Information System Controls and Computer
Processed Information
The audit organization’s current policies for complying with GAGAS 7.23-7.27, “Information
Systems Controls,” are not adequate. Specifically, the QCAP, Section 3610, requires that
auditors assess audit risk and significance within the audit objectives by gaining an
understanding of information system controls for purposes of assessing audit risk and planning
the audit within the context of the audit objectives. In contrast, GAGAS 7.23-7.27 contains
detailed guidance on the purpose of general and application system controls, the auditor’s
determination of the significance of the information system controls, factors to consider when
determining audit procedures necessary to obtain sufficient and appropriate evidence to support
the audit findings and conclusions. Current DLA audit policies and procedures also do not
address the auditor’s responsibility in assessing the sufficiency and appropriateness of
computer-processed information, whether that information is client-provided or auditor-
extracted, as required by GAGAS 7.65.

Termination of Audits
Current DLA policies and guidance do not contain procedures regarding the preparation of
documentation for audit engagements terminated before completion, as required by GAGAS
7.49. For example, one audit office terminated two audits during the review period; however,
the audit office could not provide adequate documentation to support the reasons for terminating
the work. GAGAS 7.49 states that if an audit is terminated before it is completed and an audit
report is not issued, auditors should document the results of the work to the date of termination
and why the audit was terminated. Determining whether and how to communicate the reason for
terminating the audit to those charged with governance, appropriate officials of the audited
entity, the entity contracting for or requesting the audit and other appropriate officials will
depend on the facts and circumstances, and therefore, is a matter of professional judgment.
Since the terminated audits were not documented in accordance with GAGAS, we could not
determine whether the reasons for ending the audits were justified.

Supervision
Deficiencies in Audit Supervision
We determined that ineffective supervision existed at five of eight offices that contributed to the
deficient audit work that was evidenced in our review. GAGAS 7.52 states that audit supervisors
or those designated to supervise auditors must properly supervise audit staff. At three of the
eight audit offices, supervisors either did not provide any comments to the audit working papers
or provided comments that were not substantive.

GAGAS 7.53 states that audit supervision involves providing sufficient guidance and direction to
staff assigned to the audit to address the audit objectives and follow applicable standards, while
staying informed about significant problems encountered, reviewing the work performed, and


                                                18
providing effective on-the-job training. Throughout our review of DLA audits, we noted that
meetings or discussions with audit supervisors were not documented to show the extent of the
supervisor’s involvement in significant decisions and/or the amount of supervision provided. As
a result, reviewers could not determine the level or frequency of audit supervision, beyond
documentation of supervisory reviews of audit working papers in TeamMate.

One egregious example of poor supervision occurred at the DLA Energy audit office. For report
number DAF-09-26, “Validation Report of Corrective Actions Taken for Plan of Actions and
Milestones 15, Contract Modification to Match DESC Guidance,” November 2009, we found
inadequate supervision was provided to an auditor with approximately two years of experience
as evidenced by the absence of substantive review comments considering the complexity of the
review, experience of staff, and substandard quality of the audit documentation and evidence.
During these two years, the auditor experienced a revolving door of supervisors; one supervisor
retired, another supervisor left after six months, and there were two acting supervisors. All of
the supervisors should have ensured that the audit project documentation included their
supervisory review of work performed during their tenure and the acting supervisor at the time
the report was issued should have ensured that the audit documentation fully supported the
report.

GAGAS 7.54 states that the nature and extent of the supervision of staff and the review of audit
work may vary depending on a number of factors, such as the size of the audit organization, the
significance of the work, and the experience of the staff. Clearly the standard as indicated in
GAGAS 7.54 was breached given the lack of consistent and knowledgeable supervisory
oversight in the DLA Energy Validation Report that allowed an inexperienced auditor to
extend the reporting phase of the audit for many additional months with insufficient
supervisory review.

Deficiencies in Documentation of Supervisory Review
GAGAS 7.80c states that auditors should document evidence of supervisory review, before the
audit report is issued, of the work performed that supports findings, conclusions, and
recommendations contained in the audit report. Review of audit documentation disclosed that
five of the eight offices did not comply with this GAGAS requirement. Specific examples
include the following deficiencies:

       •   Supervisory review of numerous working papers occurred after the final report date,
           and project documentation was revised after a final report was issued.
       •   Audit working papers did not contain evidence of supervisory review for the majority
           of the working papers prior to the issuance of the draft report. Instead, the supervisor
           reviewed the working papers at the end of the audit rather than throughout the audit
           process.




                                                19
       •   A project file contained documentation of supervisory reviews for working papers
           that were prepared early in the audit. This documentation included a majority of
           working papers in the planning phase and some working papers in the survey phase.
           All working papers prepared after the survey phase did not include supervisory
           sign-off reviews in the project files.
       •   Supervisory review of 12 of the 14 finding sheets occurred after a final report was
           issued. Supervisory review of additional audit documentation also occurred after the
           final report date.

Audit Evidence and Documentation
Insufficient Audit Evidence and Documentation

GAGAS 7.55 states that auditors must obtain sufficient, appropriate evidence to provide a
reasonable basis for their findings and conclusions. During the review, we identified that a
project’s working papers did not provide sufficient evidence to support the auditor’s
conclusions and report recommendation. Specifically, the working papers described the
analytical work conducted; however, the project file did not contain evidence showing that the
work described was completed. Additionally, some working paper conclusions were not
adequately supported, documented, or logical, when compared to information documented in
the record of work done summary. The responsible auditor stated that they did not document
any evidence of analytical work performed in the project files. Due to the absence of sufficient
and appropriate audit evidence, we determined that the report conclusions and recommendation
were not adequately supported or reliable. We recommended that the Audit Director, DLA
Energy:

       •   immediately rescind report number DAF-09-26, “Validation Report of Corrective
           Actions Taken for Plan of Actions and Milestones 15, Contract Modification to
           Match DESC Guidance,” November 2009;
       •   notify all recipients of the rescission;
       •   document in the official working paper file that the engagement did not comply with
           GAGAS;
       •   review any other audits that may have referenced the work performed in this audit
           and take appropriate actions in regards to them depending on the significance of this
           audit to the other assignments; and
       •   review all work completed by the responsible auditor to determine compliance with
           GAGAS.

The Deputy Commander, DLA Energy concurred with our recommendations. As of
December 16, 2010, the supervisor had reviewed four of six audits completed by the responsible
auditor. We also had concerns with the adequacy of audit evidence for report number
DAF-09-26, “Validation Report of Corrective Actions Taken for Plan of Actions and Milestones
15, Contract Modification to Match DESC Guidance,” November 2009. Specifically, the



                                               20
working papers described analytical work, but did not contain evidence to show that the work
described was completed, and some working paper conclusions were not adequately supported,
documented, or logical.

Poor Quality of Audit Evidence and Documentation

Our review disclosed noncompliance with audit evidence and documentation standards at five of
the eight offices. GAGAS 7.77 states that auditors should prepare audit documentation in
sufficient detail to enable an experienced auditor, having no previous connection to the audit, to
understand from the audit documentation the nature, timing, extent, and results of the audit
procedures performed, the audit evidence obtained and its source and the conclusions reached.
Because of the poor quality of audit evidence and documentation, 4 of the 15 projects reviewed
required extensive verbal explanation to enable the reviewers to understand the purpose and
significance of the audit documentation. Examples of insufficient and incomplete audit
evidence and documentation included the following:

       •   A final audit report contained detailed information regarding the sample selection
           methodology for Continental United States locations; however, this information was
           not documented in the project files.
       •   A final report stated that interviews were held with subject matter experts, area
           managers and field activity personnel. However, the project files did not contain
           documentation of any of the interviews.
       •   For two projects, work completed was not documented in the project files. Examples
           of missing documentation include an auditor’s analysis of contract clauses and a
           review of accounting transactions.
       •   A project’s working papers did not contain support for the report finding.
       •   A scope limitation was identified in an audit sampling plan. However, the scope
           limitation’s impact on the audit and the auditor’s conclusions were not documented in
           the project files.

Lack of Policies to Ensure Compliance with Audit Evidence and
Documentation Requirements

The DLA Accountability Office, Audit Division, had not developed policies to ensure
compliance with GAGAS audit documentation requirements. GAGAS 7.81 states that when
audit organizations do not comply with applicable GAGAS requirements due to law, regulation,
scope limitations, restrictions on access to records, or other issues impacting the audit, the
auditors should document the departure from GAGAS and the impact on the auditor’s
conclusions. Our review disclosed an audit report containing a modified GAGAS statement
resulting from an organizational impairment to independence. However, the report did not
include information regarding the reasons why GAGAS standards for independence were not
followed, and how not following the requirements affected, or could have affected the audit.




                                               21
In addition, a second audit project identified a scope impairment in the sampling plan working
papers. However, this scope limitation and its effect on the auditor’s conclusions were not
documented in the final audit report.

Retention of Audit Evidence and Documentation

GAGAS 7.82 states that audit organizations should establish policies and procedures for safe
custody and retention of audit documentation for a time sufficient to satisfy legal, regulatory, and
administrative requirements for records retention. Additionally, for audit documentation that is
retained electronically, the audit organization should establish information systems controls for
accessing and updating the audit documentation. During our review of an audit assignment, the
auditor’s analysis of 117 transactions, significant to the report findings and recommendations,
was not included in the electronic file. The analysis was missing because of ongoing software
and hardware problems. When the electronic file was compromised, the auditor did not
reperform the work because current DLA policies do not contain this requirement.

Reporting
Noncompliance with GAGAS Reporting Requirements
Four of the eight audit offices did not comply with GAGAS reporting standards. Examples of
significant deficiencies include the following:

   Location                                     Summary of Finding
Disposition      The report format did not follow guidance contained in the GAGAS standard
Services         for attestation engagements or the AICPA Statement of Standards on
                 Attestation Engagements number 10, as amended by Standards on Attestation
                 Engagement No. 14, AT Section 101, Attest Engagements, Standards of
                 Reporting, AT 101.63-87. (Report No. DA-09-05)
Energy           The working papers did not support the audit report conclusions and
                 recommendation because of the lack of audit documentation. The report scope
                 and methodology did not adequately describe the work performed. The report
                 does not provide information on the universe of contracts that were tested.
                 (Report No. DAF-09-26)
Aviation         A scope limitation was identified in the audit sampling plan. However, this
                 information was not discussed in the audit report. Also, the report did not
                 adequately describe the audit sampling methodology or design. (Report No.
                 IA-DSCR-CFOAP-2008-01)
Troop Support    The audit office did not provide any final audit reports that were issued during
                 FY 2008 and FY 2009 in our initial data call. GAGAS 8.05 states that the
                 purpose of audit reports are to communicate the results of audits to those
                 charged with governance, the appropriate officials of the audited entity, and the
                 appropriate oversight officials. The audit office did not have a clearly defined
                 audit reporting process.


                                                22
Application of Attestation Standards
We found that the DLA Accountability Office, Audit Division, and the DLA Disposition
Services audit offices did not correctly apply attestation standards for reporting. GAGAS 6.30
requires the use of four AICPA standards to follow for reporting on attestation engagements.
Additionally, GAGAS 6.31 establishes reporting standards for attestation engagements, in
addition to the requirements discussed in the AICPA standards. We found that the DLA
Disposition Services audit office stated that the auditors followed the performance audit
standards when performing their work, however, the report stated it was an attestation
engagement. Because the report stated that it was done in accordance with attestation standards,
we applied the attestation standards for our review. As a result, the report format did not adhere
to the guidance contained in either the GAGAS or AICPA reporting standards for attestation
engagements.

Reporting Process
GAGAS 8.05 states that the purpose of audit reports are to communicate the results of audits to
those charged with governance, the appropriate officials of the audited entity, and the appropriate
oversight officials. One DLA audit office did not have a clearly defined audit reporting
process which led the auditors to conclude that those charged with governance either did not
receive the audit results, or did not convey the audit findings to DLA management who could
take action on the audit findings. Because of absence of a formal reporting process, the audit
office could not provide any final audit reports issued during FY 2008 and FY 2009.

Other Issues

Audits of High Risk Troop Support Area Not in the Plan
The DLA Troop Support mission encompasses providing the U.S. military with food, clothing,
textiles, medicines, medical equipment and construction supplies and equipment. DLA Troop
Support also supports U.S. humanitarian and disaster relief efforts. In FY 2010, DLA Troop
Support had $14.789 billion in sales. However, the DLA Troop Support audit office did not
have an approved audit plan in place for FY 2010 to identify areas of risk to be audited;
therefore, it was not included in the overall DLA audit plan signed by the DLA Director.

DoD Instruction 7600.02, “Audit Policies,” dated April 27, 2007, states that management needs
and high-risk areas shall be considered in the development of audit plans. When completed, the
audit organizations shall review their audit plan with the Head or Deputy Head of the DoD
Component, command, or activity that has operational control over the DoD audit organization.
Further, the Department of Defense 7600.07-M, “DoD Audit Manual,” dated February 13, 2009,
states that DoD audit organizations should develop a planning process that establishes a planning
cycle with dates specifying the stages for developing the plan. An audit planning cycle should




                                                23
be conducted on an annual basis; however, another cycle may be used if best suited to the
organization and its mission. The audit plan is important as it allows for the review of high risk
areas and is used to allocate resources to address those areas.

Despite the importance of the DLA Troop Support Mission and the importance of an audit plan
including review of high risk areas, there were no audits included in the FY 2010 DLA Audit
Plan for DLA Troop Support. Additionally, there were no final audit reports issued in FY 2008
and FY 2009 according to audit personnel although the Deputy Commander and Program
Director stated three audits were issued in the two year timeframe. Our review was limited to
one audit report issued in FY 2010 in which all parties agreed the report was issued. Ultimately,
we concluded that no DLA Troop Support audits were included in the plan and only one to at
most four audit reports were completed in the total of the last 3 years.

Absence of a Centralized Reporting System
The DLA audit organization did not have a centralized reporting system to identify issued audit
reports. DLA One Book Process Chapter, “Internal Audit Process,” Section 3.1.12, Annual
Audit Reporting, dated November 8, 2007, states that by October 31st of each year, the DLA
audit offices shall provide to DLA Accountability Office the report number, title and objective of
each audit completed under its jurisdiction during the previous fiscal year. Our review disclosed
that DLA audit offices were not following this requirement. We found that in some instances,
the DLA Accountability Office, Audit Division, was not aware of audit reports issued by the
audit offices. In November 2009, we requested a comprehensive listing of the reports issued
during FY 2008-2009. Because the organization lacked a centralized list of all issued reports,
the DLA Accountability Office, Audit Division, sent a data call to all DLA audit offices to obtain
this information. The DLA Audit Division had requested that the audit offices input all audit
reports into an automated working paper system so that it could be reviewed by all auditors
within DLA. It is important to maintain a centralized reporting process so that audit reports can
be utilized to review any high risk audit areas, and assist with identifying any issues that may be
systemic throughout the organization.




                                                24
Recommendations, Management Comments, and
Our Response
We recommend that the Director, DLA:

   1. To increase compliance with GAGAS standards, require the audit organization to
      implement official policies and procedures; which all audit offices are required to
      follow.

          a. Review the following audit policies for sufficiency and accuracy:
             documentation of significant decisions resulting from professional judgment,
             conduct of attestation engagements, information system controls, termination
             of audits, documentation requirements, and audit reporting procedures.

          b. Develop specific policies and procedures to ensure that DLA auditors do not
             perform OMB Circular A-123 reviews or any similar nonaudit services or
             activities that would impair independence.

             Management Comments. The Director, DLA, concurred. Audit policies and
             procedures have been updated. It is expected the revised audit policy will be
             issued in March 2011. DLA will also establish the DLA Office of Inspector
             General to conduct audits and establish local internal review offices to provide
             assessments to local Commanders. Further, the DLA Accountability Office
             Director issued a memorandum on December 2, 2010, stating that all non-audit
             services related to OMB Circular A-123, Appendix A would cease immediately.
             This prohibition will be incorporated into the revised policy expected to be issued
             in March 2011.

             Our Response. The management comments are responsive. When completed,
             we request the Director, DLA, to provide us with a copy of the revised audit
             policies.

   2. Establish a two-year plan identifying either audit offices or high risk areas to review
      for compliance with internal quality assurance policies and procedures and GAGAS
      standards.

             Management Comments. The Director, DLA, concurred. The Audit Quality
             Control and Assurance Policy Handbook will be revised by March 2011, to
             establish a requirement to develop a two-year plan.

             Our Response. The management comments are responsive. When completed,
             we request the Director, DLA, to provide us with a copy of the revised Audit
             Quality Control and Assurance Policy Handbook.



                                             25
3. At least annually, the Quality Assurance and Audit Management Systems team
   should summarize the results of its monitoring procedures and report the results to
   all audit offices.

          Management Comments. The Director, DLA, concurred. Starting with
          FY 2011, DLA will include the results of internal quality assurance reviews in the
          DLA Annual Performance Report. The FY 2011 Annual Performance Report will
          be published in the first quarter of FY 2012.

          Our Response. The management comments are responsive. When published,
          we request the Director, DLA, to provide us with a copy of the FY 2011 Annual
          Performance Report.

4. Require any DLA audit office that does not report directly to their local
   Commander and/or Deputy Commander to immediately realign their reporting
   structures to maintain organizational independence in both fact and appearance.

          Management Comments. The Director, DLA, concurred. The DLA
          headquarters audit organization has been realigned to report directly to the
          Director, DLA. The reorganization of the field audit offices into internal review
          offices will address this recommendation at the field level.

          Our Response. The management comments are responsive. We request the
          Director, DLA, to provide us with a copy of the order that authorized the
          reporting realignment of the DLA headquarters audit organization. When issued,
          we also request the Director, DLA, to provide us with a copy of the order that
          authorizes the functional realignment of the DLA audit field offices to DLA
          internal review field offices. In addition, we request a timetable of when the
          functional realignment of the audit field offices to internal review offices is
          expected to be completed.

5. Take action to improve the audit organization’s understanding and knowledge of
   the following GAGAS standards: performance of nonaudit services, independence
   requirements, performing and reporting on attestation engagements, application of
   attestation standards, using the work of external specialists, planning, supervision,
   evidence, audit documentation, and reporting requirements.

          Management Comments. The Director, DLA, concurred. Once the internal
          audit/internal review is completed, DLA will conduct GAGAS refresher training
          for all DLA OIG auditors, as well as training on the new DLA audit policy. The
          training will occur by April 2011.

          Our Response. The management comments are responsive. We request the
          Director, DLA, to provide us with a copy of the order that authorized the
          reporting realignment of the DLA headquarters audit organization. When issued,


                                          26
          we also request the Director, DLA, to provide us with a copy of the order that
          authorizes the functional realignment of the DLA audit field offices to DLA
          internal review field offices. In addition, we request a timetable of when the
          functional realignment of the audit field offices to internal review offices is
          expected to be completed. Additionally, we request a copy of the training
          syllabus and curriculum to ensure ourselves all standards covered by this
          recommendation are adequately addressed.

6. Review and formalize the DLA audit organization’s process for recruitment, hiring,
   continuous development, assignment, and evaluation of staff to ensure maintenance
   of a competent workforce. Factors to consider in the formalization of the process
   should include review of the size of the audit organization, its structure, and the
   work being performed.

          Management Comments. The Director, DLA, concurred. DLA is working
          with Human Resources to develop a plan for hiring, retaining, and training
          auditors. Competencies are being developed in coordination with the Office of
          the Secretary of Defense, Comptroller, and will provide an overall model for
          hiring, training, and career mapping for the 0511 occupational series. An auditor
          training matrix is also being developed. By April 2011, DLA will have
          completed the auditor skills assessment and work experience questionnaire.

          Our Response. The management comments are responsive. We request the
          Director, DLA, to provide us with copies of the detailed plan, the overall model
          for hiring, training, and career mapping, and when completed, the auditor skills
          assessment and work experience questionnaire.

7. Provide GAGAS training to all auditors including training on attestation
   engagements; performing audit and fraud risk assessments; and independent
   reference reviews at a minimum.

          Management Comments. The Director, DLA, concurred. Once the internal
          audit/internal review is completed, DLA will conduct GAGAS refresher training
          for all DLA OIG auditors, as well as training on the new DLA audit policy. The
          training will occur by April 2011.

          Our Response. The management comments are responsive. We request the
          Director, DLA, to provide us with a copy of the order that authorized the
          reporting realignment of the DLA headquarters audit organization. When issued,
          we request the Director, DLA, to provide us with a copy of the General Order that
          authorizes the functional realignment of the DLA audit field offices to DLA
          internal review field offices. Also, we request a timetable of when the functional
          realignment of the audit field offices to internal review offices is expected to be
          completed. Additionally, we request a copy of the training syllabus and



                                           27
          curriculum to ensure ourselves all standards covered by this recommendation are
          adequately addressed.

8. Ensure all audit offices have an approved annual audit plan in place that covers
   high risk areas.

          Management Comments. The Director, DLA, concurred. The new DLA
          audit policy will require audit offices to develop and publish an annual audit plan.
          The DLA audit policy will be issued by March 2011.

          Our Response. The management comments are responsive. We request the
          Director, DLA, to provide us with a copy of the audit policy on annual audit
          plans.

9. Require all audit offices to input final reports into the DLA automated working
   paper system.

          Management Comments. The Director, DLA, concurred. The DLA
          Accountability Office will review the draft policies and require all audit teams to
          use the automated working paper system for all audits. This DLA audit policy
          will be issued by March 2011.

          Our Response. The management comments are responsive. When completed,
          we request the Director, DLA, to provide us with a copy of the audit policy on
          using the automated working paper system for all audits.




                                           28
Appendix B. Summary of Interview Results
Relating to DLA Audit Policies and GAGAS
We interviewed 71 DLA Audit Division and field office staff to determine their knowledge of
DLA audit policies and GAGAS. The interviews consisted of questions related to DLA Audit
Division audit policies and GAGAS general standards, field work standards, and reporting
standards. A summary of the results of the responses received follows:

  Areas Pertaining to DLA Audit Division                Responses to Questions
      Policies and GAGAS Standards
   1. Awareness of DLA Audit Policies        All staff were aware of audit policies.
   2. Compliance with GAGAS                  Most staff stated that their work complied with
                                             GAGAS standards.
   3. Independence                           Most staff did not encounter any external or
                                             organizational independence impairments
                                             when performing their work.

                                             All staff stated that they did not perform any
                                             nonaudit services that could impact
                                             independence.
   4. Competence                             Staff responses indicated that the competency
                                             requirement was fulfilled.
   5. Quality Control and Assurance          Depending on years of auditing experience
                                             and length of employment at DLA, answers
                                             varied from extensive to minimal
                                             understanding of quality control procedures.
   6. Planning (Key Decisions)               Staff involved with audit planning
                                             documented key planning decisions and
                                             communicated with the client throughout the
                                             planning phase.
   7. Planning (Fraud)                       Responses varied from conducting detailed
                                             fraud risk assessments to not performing any
                                             assessment of fraud risk.
   8. Supervision                            All staff stated that they received or provided
                                             adequate supervision.
   9. Audit Documentation                    Staff provided examples of activities to ensure
                                             that audit reports are properly supported.
   10. Evidence                              Staff provided examples of actions to ensure
                                             that audit evidence is supported in the final
                                             report.
   11. Reporting (Timeliness)                Staff provided examples of activities to ensure
                                             that information provided in reports are
                                             current and relevant.




                                             29
Appendix C. Scope and Methodology
We reviewed the adequacy of the DLA Audit Division and eight DLA audit offices’ compliance
with DLA Audit Division quality policies, procedures, and GAGAS. We did not review work
completed by the DLA Document Services audit office because it did not complete any audit-
related work during the review period. In May 2010, the employee’s job series was converted
from a GS-0511, Auditor, to a GS-0343, Management and Program Analyst, to ensure that the
job series classification accurately reflects the nature and type of work performed at that audit
office.

We reviewed the adequacy of the design of policies and procedures that the DLA Audit Division
established to provide reasonable assurance of compliance with GAGAS in the conduct of its
audits and attestation engagements. The following policy and guidance documents were
included in our review:

       •   DLA One Book Process Chapter “Internal Audit Process,” November 8, 2007,
           establishes policies, processes, and responsibilities for the performance of internal
           audits within DLA.
       •   “Enterprise Audit Procedures,” August 14, 2009, provides guidance for conducting
           enterprise-wide audits.
       •   “Audit Quality Control and Assurance Policy” August 12, 2009, details the
           organization’s overall quality control guidance.

In performing our review, we considered the requirements of quality control standards and other
auditing standards contained in the 2007 Revision of GAGAS issued by the Comptroller General
of the United States. GAGAS 3.56 states:

       The audit organization should obtain an external peer review sufficient in scope to
       provide a reasonable basis for determining whether, for the period under review, the
       reviewed audit organization’s system of quality control was suitably designed and
       whether the audit organization is complying with its quality control system in order
       to provide the audit organization with reasonable assurance of conforming with
       applicable professional standards.

We performed this review from December 2009 through October 2010 in accordance with
standards and guidelines established in the March 2009 Council of the Inspectors General on
Integrity and Efficiency “Guide for Conducting External Peer Reviews of Audit Organizations of
the Federal Offices of Inspector General.” In performing this review, we assessed, reviewed, and
evaluated:

       •   the adequacy of the design of policies and procedures that the DLA Audit Division
           established to provide reasonable assurance of compliance with GAGAS in the
           conduct of its audits and attestation engagements;
       •   staff understanding of quality control policies and procedures;



                                                30
       •   independence documentation and records of continuing professional education to
           verify the measures that enable the identification of independence impairments and
           maintenance of professional competence; and
       •   fifteen reports and related project documentation to determine whether established
           policies, procedures, and applicable standards were followed.

We selected 17 reports from a universe of reports issued by DLA auditors during FY 2008,
FY 2009, and until July FY 2010. We tested 15 of the 17 projects for compliance with the DLA
Audit Division’s system for quality control for performance audits and attestation engagements.
Two projects selected for review could not be evaluated because they were incorrectly classified
as (1) performance audit, and (2) agreed-upon procedures review. Additional research and
analysis disclosed that the two projects excluded from our review should have been classified as
nonaudit services. Specifically, auditors from the DLA Audit Division and the DLA Distribution
audit office conducted Office of Management and Budget Circular A-123, Appendix A, internal
control testing, which is classified in GAGAS 3.29j as a nonaudit service for the following
engagements:

       •   Internal Control Testing Related to the Hire to Retire Business Cycle as Required by
           Office of Management and Budget Circular A-123, Appendix A, report number DAF-
           09-17 (Classified as a Performance Audit); and
       •   Internal Control Testing Related to Non Energy Inventory Quantity as Required by
           Office of Management and Budget Circular A-123 Appendix A, report number DDC-
           08-03 (Classified as Agreed-Upon Procedures Review).

In selecting reports, we worked with the DLA Audit Division and audit offices to establish the
universe of reports that were issued during the review period. We then selected reports that were
representative of the types of reviews completed at each audit office. For some audit offices,
enterprise-wide audits were selected because the audit office completed the majority of the audit
work with minimal assistance from other DLA audit offices. We also selected reports issued
during FY 2010 to measure compliance with DLA Audit Division’s quality assurance policies
and procedures issued during August 2009. In other instances, FY 2010 reports were selected
for review because audit work completed during the review period could not be measured against
GAGAS standards, and one audit office did not issue any reports during FY 2008 and FY 2009.

The following table identifies the specific reports reviewed at each audit office. The type of
review column contains information that was determined by the report GAGAS compliance
statement and/or type of review described in the final report.




                                                31
   Audit Office                     Report Title, Number, Issue Date                  Type of Review
DLA Audit Division        DAO-09-10, “Defense Logistics Agency (DLA)               Performance/Enterprise
                          Transfer of Nuclear Weapons Related Material
                          (NWRM) to the United States Air Force (USAF),”
                          August 18, 2009
                          DAF-09-17, “Internal Control Testing Related to the            Performance 3
                          Defense Logistics Agency (DLA) Hire to Retire
                          Business Cycle as Required by the OMB A-123,
                          Appendix A,” August 31, 2009
                          DAI-09-33, “Validation of Notice of Deficiency           Performance/Validation
                          (NOD) 13, 14, and 15 - Corrective Actions Taken
                          Related to Deficiency of RACF Security Settings,
                          Recertification of DFAMS Privileged Accounts,
                          DFAMS Audit Logs and System Software Change
                          Control Weaknesses,” January 26, 2010
DLA Energy                DAF-09-26, “Final Validation Report of Corrective        Performance/Validation
                          Actions Taken for Plan of Actions and Milestones
                          (POAM) 15, Contract Modification to Match DESC
                          Guidance,” November 2, 2009
                          08-07, “Audit Report of the Verification of Project            Performance
                          765’s Account Balance,” June 1, 2009
DLA Troop Support         DSCP-09-05, “Government Purchase Card Program                  Performance
                          Defense Supply Center Philadelphia,”
                          December 9, 2009
DLA Logistics             DLIS-09-15, “FISMA Compliance Audit,”                          Performance
Information Service       October 16, 2009
                          DLIS-09-11, “Customer Interaction Center,”                     Performance
                          July 8, 2009
                          DLIS-10-03, “Customer Interaction Center (CIC)                 Performance
                          Follow Up Report,” May 24, 2010
DLA Disposition           DA-09-05, “DRMS Vulnerability Assessment,”                   Examination-level
Services                  April 23, 2009                                                  Attestation
                          DRMS-09-03 “Controls Over RTD/Direct Removals,”                Performance
                          October 15, 2009
DLA Land and              DSCC-DI-09-28 “Audit of DSCC Government                        Performance
Maritime                  Purchase Cards,” March 31, 2010
                          DSCC-DI-09-49, “Value Engineering Savings-MRAP                 Performance
                          Power Supply Assembly,” August 20, 2009
DLA Distribution          DAO-09-13 “Defense Distribution Depot,                   Performance/ Enterprise
                          Susquehanna, PA (DDSP) Distribution Process
                          Review,” December 30, 2009
                          DDC-08-03, “Defense Logistics Agency Fiscal Year               Agreed Upon
                          2008 Non Energy Inventory Quality Distribution                 Procedures 4
                          Operations Control Tests,” August 6, 2008
DLA Aviation              IA-DSCR-CFOAP-2008-01, “Final Report for the             Performance/Validation
                          Validation Results of the DDC End of Month
                          Transportation Accruals,” September 2, 2008
                          DAO-09-12, “Audit of Military Construction               Performance/Enterprise
                          Resulting from Base Realignment and Closure 2005,”
                          January 27, 2010

3
    Nonaudit service incorrectly classified as a performance audit.
4
    Nonaudit service incorrectly classified as an agreed upon procedures engagement.


                                                          32
Limitations of Review
Our review would not necessarily disclose all weaknesses in the system of quality control or all
instances of noncompliance because we based our review on selective tests. There are inherent
limitations in considering the potential effectiveness of any quality control system. Departures
from GAGAS can result from misunderstood instructions, mistakes in judgment, carelessness, or
other human errors. Projecting any evaluation of a quality control system is subject to the risk
that one or more procedures may become inadequate because conditions may change or the
degree of compliance with procedures may deteriorate.




                                               33
Appendix D. Defense Logistics Agency
            Comments




                   34
35
36
37
38
